                   United States Attorney Donald J. Cazayoux, Jr.
                            Middle District of Louisiana

FOR IMMEDIATE RELEASE                               CONTACT: WALT GREEN
WEDNESDAY, OCTOBER 26, 2011                         (225) 389-0443
WWW.USDOJ.GOV/USAO/LAM                              FAX: (225) 389-0561

                   FLORIDA MAN PLEADS GUILTY TO WIRE FRAUD
                       AND AGGRAVATED IDENTITY THEFT


        BATON ROUGE, LA – United States Attorney Donald J. Cazayoux, Jr. announced that
ARNOLD H. THOMAS, 47, of Fernandina Beach, Florida, pled guilty today before United
States District Court Chief Judge Brian A. Jackson, to one count of wire fraud and one count of
aggravated identity theft. THOMAS faces a maximum sentence of not less than 2 years and not
more than 22 years, and fines of up to $500,000.


        According to the plea agreement filed with the Court, THOMAS devised a scheme to
defraud the Louisiana Workforce Commission by submitting false quarterly wage reports in the
names of fictitious companies and then filing false applications for unemployment benefits in the
names of various third parties. In all, THOMAS submitted approximately 392 false applications
resulting in a loss of approximately $1,254,533.


        David C. Wickersham, Special Agent-in-Charge of the Dallas Region for the U.S.
Department of Labor’s Office of Inspector General, Office of Labor Racketeering and Fraud
Investigations stated, “Today’s guilty plea highlights the Office of Inspector General’s efforts to
combat schemes that compromise the integrity of the Department of Labor’s UI program. The
OIG will continue to aggressively investigate these types of crimes.”

        United States Attorney Donald J. Cazayoux, Jr. stated, “The conviction of this defendant
demonstrates our office’s strong commitment to aggressively prosecute anyone who defrauds our
public assistance programs for their personal gain.”

       The investigation of THOMAS was conducted by the United States Department of Labor
– Office of Inspector General and the Social Security Administration – Office of Inspector
General, with the assistance of the Louisiana Workforce Commission. The case is being
prosecuted by Assistant United States Attorney Rich Bourgeois who serves as Deputy Criminal
Chief.
                                                ###
